Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 1 of 36

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
YISRAEL M. KEMP,
Plaintiff,
CIVIL ACTION NO.
1:07-C V-0212-BBM-RG V

v.

GEORGIA STATE UNIVERSITY
ADMISSIONS, et al v
Defendants.
ORDER FOR SERVICE OF REPORT. RECOMMENDATION. AND ORDER
Attached is the Report and Recommendation of the United States Magistrate
Judge made in this action in accordance with 28 U.S.C. § 636(b)(1), Fed. R. Civ. P.
72(b), and this Court's Local Rule 72. Let the same be filed and a copy, together with
a copy of this Order, be served upon counsel for the parties.
Pursuant to 28 U.S.C. § 636(b)(1), each party may file written objections, if any,
to the Report and Recommendation within ten (10) days of the receipt of this Order.
Should objections be filed, they shall specify with particularity the alleged error or
errors made (including reference by page number to the transcript if applicable) and
shall be served upon the opposing party. The party filing objections will be
responsible for obtaining and filing the transcript of any evidentiary hearing for

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 2 of 36

review by the district court.

If no objections are filed, the Report and

Recommendation may be adopted as the opinion and order of the district court and
any appellate review of factual findings will be limited to a plain error review.
United States v. Slay. 714 F.2d 1093 (11th Cir. 1983).
The Clerk is directed to submit the Report and Recommendation with
objections, if any, to the district court after expiration of the above time period.
IT IS SO ORDERED, this 16th day of June, 2008.

'RUSSELL G. VINEYARE^f
UNITED STATES MAGISTRATE JUDGE

2

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 3 of 36

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
YISRAEL M. KEMP,
Plaintiff,
CIVIL ACTION NO.
1:07-CV-0212-BBM-RGV

v.

GEORGIA STATE UNIVERSITY
ADMISSIONS, et al •/
Defendants.
MAGISTRATE TUDGE'S FINAL REPORT,
RECOMMENDATION. AND ORDER
Yisrael M. Kemp ("plaintiff"), proceeding pro se, filed the instant complaint
under 42 U.S.C. § 1983 ("§ 1983") and Title VI of the Civil Rights Act of 1964, 42
U.S.C. § 2000d ("Title VI"), against the Georgia State University Admissions Office
and the Board of Regents of the University System of Georgia (collectively,
"defendants"), alleging that defendants discriminated against him on the basis of
his race and gender as a result of his attempt to enroll at Georgia State University
("GSU").

[Doc. I].1 Presently pending are defendants' Motion for Summary

Judgment, [Doc. 61], plaintiff's Motion for Summary Judgment, [Doc. 63],
1 On January 29,2007, plaintiff filed an "Amendment to Title VI Complaint,"
adding an exhibit to his original complaint but no additional claims or parties. [Doc.
7]-

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 4 of 36

defendants' Motion to Strike, [Doc. 65], and plaintiff's Amended Motion for
Summary Judgment, [Doc. 69]. On February 1,2008, defendants filed a response to
plaintiff's summary judgment motions, [Doc. 72], but plaintiff has failed to file any
response to defendants' motions to strike or for summary judgment despite the
Clerk's notice to plaintiff to respond, [see Doc. 62]? For the reasons stated herein,

2 On January 8,2008, defendants filed a motion to strike plaintiff's motion for
summary judgment, arguing that plaintiff's motion fails to comply with this Court's
Local Rule 56.1 regarding the filing of a motion for summary judgment. [See Doc.
65]. In lieu of filing a response to defendants' motion to strike, plaintiff filed an
amended motion for summary judgment on January 16,2008, attempting to comply
with Local Rule 56.1 and to add parties and a new claim under 42 U.S.C. § 1981.
[Doc. 69]. However, neither of plaintiff's motions for summary judgment, [Docs. 63
& 69], complies with this Court's Local Rules. [See Docs. 33, 54, & 60]. See also
Brandon v. Lockheed Martin Aeronautical Svs., 393 F. Supp. 2d 1341,1348 (N.D. Ga.
2005) (holding pro se litigant to the procedural requirements of Local Rule 56.1). In
addition, any attempt to add claims and parties at this stage of the litigation is
untimely and not in compliance with this Court's scheduling order, [Doc. 24], or
Federal Rule of Civil Procedure 15(a). See Hyland v. Sec'v for the Dep't of Corr., No.
06-14455,2007 WL 2445972, at *3 n.l (11th Cir. Aug. 29,2007). Plaintiff's motions for
summary judgment contain arguments that should have been set forth in plaintiff's
response to defendants' motion for summary judgment. As a result, defendants'
motion to strike, [Doc. 65], is hereby GRANTED in part with respect to plaintiff's
motions for summary judgment, [Docs. 63 & 69], and DENIED in part to the extent
that the Court will consider plaintiff's arguments set forth in his motions for
summary judgment as plaintiff's response to defendants' motion for summary
judgment. See Wilshin v. Allstate Ins. Co.. 212 F. Supp. 2d 1360,1364-65 (M.D. Ga.
2002) (granting in part and denying in part defendant's motion to strike plaintiff's
motion for summary judgment, as the court considered plaintiff's motion as a
response to defendant's motion for summary judgment). The Clerk is therefore
DIRECTED to terminate any submission of plaintiff's summary judgment motions,
[Docs. 63 & 69], to the undersigned.
2

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 5 of 36

the undersigned Magistrate Judge RECOMMENDS that defendants' Motion for
Summary Judgment, [Doc. 61], be GRANTED.
I. FACTUAL BACKGROUND
In connection with their motion and as required by Local Rule 56.1(B),
defendants submitted a Statement of Material Facts as to which there Exists No
Genuine Issue to be Tried. [Doc. 61-3]. Plaintiff submitted a response admitting the
facts and citations asserted in f ][ 1-15,17,19-22,29-30,32-38,40,44-46,52,54-55,5863,65,69-70,72, and 78-79 of defendants' statement. [Doc. 67]. Plaintiff denied the
facts asserted in ^ 16,18, 23-28,31,39,41-43, 47-51, 53, 56-57, 64, 66-68, 71, 73-77,
and 80 of defendants' statement. [Id.]. However, with regard to all of plaintiff's
denials, plaintiff either gave no reason for his denial, gave narratives that do not
actually refute the fact, failed to cite specific evidence, or cited evidence that does not
support the denial. Because these responses do not comport with the requirements
of Local Rule 56.1(B)(2)(a)(2), the Court deems these facts and citations admitted as
well.3

3 Additionally, plaintiff's summary judgment motions, now considered a
response to defendants' motion, include plaintiff's own statement of facts. [See Doc.
63 & Doc. 69 at 1-2, 16-20]. However, these "statements of facts" likewise fail to
comply with Local Rule 56.1(B)(1)(d) and, therefore, will not be considered by this
Court. See Brandon, 393 F. Supp. 2d at 1348.
3

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 6 of 36

A.

GSU and its Admissions Requirements and Policies
GSU is a member school of the University System of Georgia. [Doc. 61-3 ]f 1;

Doc. 61-5 (Peters Aff.) ]f 5]. As a member school, GSU must establish admission
requirements that meet the minimum requirements established by the Board of
Regents of the University System of Georgia ("the Board"), however, it may also
establish admission requirements that exceed those set by the Board. [Doc. 61-3 ^
1-2; Doc. 61-5 ][ 5]. GSU also develops its educational policies in compliance with
applicable federal and state laws as well as the Board's policies. [Doc. 61-3 ][ 3; Doc.
61-5 If 6]. For example, itis GSU's policy to provide equal educational opportunities
and to make admission decisions without regard to sex, color, age, religion, national
origin, sexual orientation, or disability. [Doc. 61-3 ^f 3; Doc. 61-5 ^f 6; Doc. 61-6
(GSU's undergraduate catalog) at 13].
GSU bases its admission decisions on an applicant's previous record of
satisfactory academic performance, test scores, personal qualities and circumstances,
character, and good conduct, making admission into GSU a selective process. [Doc.
61-3 f 4; Doc. 61-5 ^f 7; Doc. 61-6 at 13]. Even applicants who meet GSU's minimum
admission requirements will not necessarily be admitted. [Doc. 61-3 ]f 4; Doc. 61-5
]j 7; Doc. 61-6 at 13]. In addition, applicants who are ineligible for re-enrollment at
any prior educational institution or who have been convicted of a violation of a

4

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 7 of 36

federal, state, or municipal law, other than minor traffic violations, will be
considered for admission to GSU only after their cases are reviewed by the Dean of
Students, which includes an interview with the Office of the Dean of Students and
obtaining any additional background checks that the Office of the Dean of Students
deems necessary. [Doc. 61-3 ]f | 5-6; Doc. 61-5

8; Doc. 61-6 at 13]. This policy was

instituted to insure that the applicant meets GSU's satisfactory academic
performance, good character, and good conduct requirements. [Doc. 61-3 ]f 6; Doc.
61-5 f 8; Doc. 61-6 at 13]. During this additional review process, the Office of the
Dean of Students does not keep the Office of Admissions informed of the applicant's
status, but will advise the Office of Admissions of its decision once the review
process is complete. [Doc. 61-3

66; Doc. 61-5

27].

An applicant seeking to enroll at GSU begins the process by submitting an
application that will be fully processed when all information requested on the
application is provided and the application fee is paid. [Doc. 61-3 ]f 7; Doc. 61-5 ]j
9; Doc. 61-6 at 14]. GSU has several admission categories under which an applicant
may be classified and admitted. [Doc. 61-3

8; Doc. 61-5 ^ 10]. For example,

Freshman applicants include those applicants who have never enrolled in a
regionally-accredited college or university. [Doc. 61-3 ]f 9; Doc. 61-5

11; Doc. 61-6

at 14-15]. GSU's minimum admission requirements for Freshman applicants include

5

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 8 of 36

graduation and receipt of a college preparatory diploma from an accredited high
school, completion of the college preparatory curriculum established by the Board,
a minimum 2.8 high school grade-point average ("GPA"), and minimum scores on
college entrance exams such as the ACT or SAT. [Doc. 61-3 f 9; Doc. 61-5 f 11; Doc.
61-6 at 14-15],
Transfer applicants are those applicants who have previously attended a
regionally accredited college or university. [Doc. 61-3 ]f 10; Doc. 61-5 If 12; Doc. 61-6
at 15].

Minimum admission requirements for Transfer applicants include a

minimum cumulative 2.5 GPA in college-level courses, eligibility to re-enroll at the
last educational institution attended, and completion of the college preparatory
curriculum established by the Board. [Doc. 61-3 If 10; Doc. 61-51f 12; Doc. 61-6 at 1516].

Additionally, Transfer applicants are required to either arrange for all

transcripts from attendance at other colleges or universities to be sent directly to
GSU or to provide GSU the transcripts in a sealed envelope directly from the
previously attended institution. [Doc. 61-3 ]f 10; Doc. 61-5 ]f 12; Doc. 61-6 at 15-16].
Applicants are considered Non-Traditional if they have been out of high
school for at least five years, hold a high school diploma from an accredited high
school, have not attended college within the past five years, and have earned fewer
than 30 transferable semester, or 45 quarter, credit hours. [Doc. 61-31f 11; Doc. 61-5

6

(

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 9 of 36

13; Doc. 61-6 at 19]. In order to be considered for admission, Non-Traditional
applicants must take the COMPASS assessment test and earn certain minimum
scores in each category, including a score of 70 in reading, 60 in writing, and 37 in
mathematics. [Doc. 61-3 ^ 12; Doc. 61-5 ^ 13; Doc. 61-6 at 19]. Applicants who meet
these conditions are considered Non-Traditional Freshman. [Doc. 61-3 ^ 13; Doc.
61-5 f 13]. Non-Traditional Freshman applicants who have earned more than 29
hours of college-level coursework, however, must meet Transfer student
requirements. [Doc. 61-3 ^[ 13; Doc. 61-5 f 13].
If an applicant has earned 30 or more transferable semester credit hours but
has not been enrolled in any college-level classes for five or more years, he or she
will be considered a Non-Traditional Transfer applicant. [Doc. 61-3 ][ 14; Doc. 61-5
U 14; Doc. 61-7 (Board's policy manual)]. In addition, Non-Traditional Transfer
applicants must have completed the college preparatory curriculum established by
the Board. [Doc. 61-3 ][ 15; Doc. 61-5 ^[ 14; Doc. 61-7]. Applicants in this category
who do not meet the GPA requirements for Transfer applicants may be admitted to
GSU by the Director of Admissions as Limited Admission Transfer students. [Doc.
61-3 Tf 15; Doc. 61-5 ]j 14; Doc. 61-7]. The intent behind the Non-Traditional Transfer
category is to authorize GSU to admit applicants who have experienced academic
difficulty in the past, but who have demonstrated the ability, maturity, and

7

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 10 of 36

commitment to be academically successful. [Doc. 61-3 f 16; Doc. 61-5 ]} 15; Doc. 617].
In order to be considered for admission for a specific semester at GSU,
applicants must submit or postmark their applications and application fees by the
established priority or regular deadline dates for that term. [Doc. 61-3 If 17; Doc. 615 If 16; Doc. 61-6 at 14,16,19]. Applicants who submit applications by the applicable
priority deadline date and are accepted for admission are permitted to register early.
[Doc. 61-3 ]f 17; Doc. 61-5 f 16; Doc. 61-6 at 14, 16, 19]. Applicants in need of
university housing, scholarships, and financial aid are encouraged to apply by the
priority deadline date. [Doc. 61-3 ^f 17; Doc. 61-5

16; Doc. 61-6 at 14,16,19]. For

GSU applicants seeking enrollment for the 2006 Summer semester, February 1,2006,
was the priority deadline date for all applicants. [Doc. 61-3 ]f 18; Doc. 61-5 ^f 16; Doc.
61-6 at 14]. The regular deadline date was March 1, 2006, for Freshman and NonTraditional applicants and June 1, 2006, for Transfer applicants. [Doc. 61-3 ]f 18;
Doc. 61-5 Tf 16; Doc. 61-6 at 5,14,16,19].
B.

Plaintiff's Application for Enrollment at GSU and its Review
Plaintiff, who is an African-American male, graduated from Miami Killian

High School in Miami, Florida in 1976. [Doc. 61-3 f 19; Doc. 61-8 (Pl/s GSU
Application)]. Thereafter, plaintiff attended St. Leo College in 1979, Atlanta Junior

8

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 11 of 36

College during the summers of 1982 through 1986, and International Theological
Seminary in 1986. [Doc. 61-3 f 20; Doc. 68 (Pl.'s Dep.) at 9-12]. Plaintiff also
attended Morris Brown College from 1982 through 1986, majoring in philosophy
and religion. [Doc. 61-3 f 21; Doc. 68 at 10-13]. Although plaintiff finished his
coursework at Morris Brown College, he was not awarded a degree in 1986 because
he was incarcerated at the time of his graduation ceremony. [Doc. 61-3 f 21; Doc.
68 at 14-16],
On February 14, 2006, plaintiff submitted an application for admission to
GSU's 2006 summer session and paid the required application fee. [Doc. 61-3 f 22;
Doc. 61-8].4 When completing the application, plaintiff chose the Non-Traditional
category as the applicant category he wanted to be considered in as for admission.
[Doc. 61-3 ff 29, 31; Doc. 61-5 f 22; Doc. 68 at 49]. As a result of choosing this
category, plaintiff was required to meet the minimum admission requirements for
a Non-Traditional Freshman, which he did not meet because, among other things,
he had earned more than 30 transferable semester credit hours and scored below
average on the COMPASS test. [Doc. 61-3 f f 31-32; Doc. 61-5 f 22].

4 Plaintiff challenges GSU's admissions policies in place when he applied for
admission for the 2006 Summer session. The educational and admissions policies
in place at GSU for the 2005-2006 and 2006-2007 school years are the same. [Doc. 613 Iff 2, 8; Doc. 61-5 f 5].
9

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 12 of 36

On February 16, 2006, plaintiff submitted to GSU an official transcript from
Morris Brown College. [Doc. 61-3

33; Doc. 61-5 f 19; Doc. 61-9 (Morris Brown

Transcript); Doc. 68 at 45]. According to this transcript, plaintiff attended Morris
Brown from 1982 through 1986, earning 119 credit hours with a cumulative GPA of
2.19. [Doc. 61-3 T| 34; Doc. 61-5 ]f 19; Doc. 61-9]. Although plaintiff last attended
Morris Brown in 1986, the transcript showed that he was awarded a Bachelor of
Science degree in "organizational management" nineteen years later in May 2005.
[Doc. 61-3 ]f 36; Doc. 61-5

20; Doc. 61-9]. While Morris Brown was accredited

during plaintiffs enrollment, its accreditation was revoked in 2002, and it was
therefore not accredited at the time it awarded plaintiff his degree. [Doc. 61-3 ]f 37;
Doc. 61-5 t 20],
The transcript further showed that plaintiff also earned 39 credit hours of
college-level coursework from an unspecified college, thereby earning a total of 145
credit hours of college-level coursework. [Doc. 61-3134; Doc. 61-5

19; Doc. 61-9],

However, in his response to the application question requesting a list of every
college at which he has been enrolled, plaintiff responded that he had only attended
Morris Brown College from 1982 through 1986, earning 124 semester hours. [Doc.
61-3 f 23; Doc. 61-5 ][ 18; Doc. 61-8; Doc. 68 at 43-48], Plaintiff failed to disclose his

10

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 13 of 36

attendance at St. Leo College, Atlanta Junior College, or the International
Theological Seminary. [Doc. 61-3 ^ 24; Doc. 61-8; Doc. 68 at 43-48].5
Plaintiff's application was processed by Ms. Judith Carson ("Carson"), who
was new to her position with GSU. [Doc. 61-3

38; Doc. 61-5

23]. Although

plaintiff had checked the Non-Traditional entrance category, he had supplied his
Morris Brown transcript, which showed he had more than 30 semester hours of
college-level coursework. [Doc. 61-3 f 39; Doc. 61-5 ^ 22; Doc. 61-8; Doc. 61-9].
Therefore, plaintiff was designated as a Transfer applicant. [Doc. 61-3 ][ 39; Doc. 615 t 22],
On March 3, 2006, GSU's admissions staff sent plaintiff correspondence
summarizing the information they had on file and showing his applicant status as
Transfer. [Doc. 61-3

40; Doc. 61-5 ^ 24; Doc. 61-10 (3/3/06 correspondence); Doc.

68 at 60-61]. Plaintiff was requested to verify the information. [Doc. 61-3 ][ 40; Doc.
5 Plaintiff's application was also incomplete in several other categories. [Doc.
61-5 f 21]. Specifically, although plaintiff indicated that he had been convicted of
a federal, state, or municipal law, he provided only a brief statement regarding a
Georgia criminal conviction for robbery for which he served time in prison from
1986 through 1988 and failed to include a complete explanation regarding the
circumstances surrounding that conviction. [Doc. 61-3 ^25-26; Doc. 61-5^21; Doc.
61-8; Doc. 61-15 (PL's criminal history statement); Doc. 68 at 38-40]. Furthermore,
plaintiff did not provide any information regarding his other Georgia convictions
or his numerous convictions in Florida. [Doc. 61-3 ][ 27; Doc. 61-8; Doc. 68 at 29-30,
40-43]. Finally, plaintiff, who did not graduate from a Georgia high school, did not
provide the requested narrative explaining why he came to Georgia and his plans
for the future. [Doc. 61-3 ^[ 28; Doc. 61-5 ^[ 21; Doc. 61-8].
11

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 14 of 36

61-5

24; Doc. 61-10; Doc. 68 at 60-61]. Plaintiff did not contact GSU to advise that

he believed GSU had made any errors with regard to his information or applicant
status. [Doc. 61-3 ^ 41; Doc. 61-5 ]f 24; Doc. 68 at 60-61].
On April 4,2006, GSU advised plaintiff that he did not meet its requirements
for Transfer admission because his GPA was below the minimum cumulative GPA
of 2.5. [Doc. 61-3 U 42; Doc. 61-5 f 25; Doc. 61-11 (4/4/06 correspondence); Doc. 68
at 63]. Plaintiff immediately appealed the decision. [Doc. 61-3 ^ 43; Doc. 61-16 (Pl.'s
4/4/06 Appeal); Doc. 68 at 65]. In his appeal, plaintiff complained that the GSU
admission system "continues to be racilly [sic] discriminatory toward black student
admission." [Doc. 61-3 f 44; Doc. 61-16]. Plaintiff further stated, "MY BELOW
AVERAGE compass score and below GPA should reflect my race affirmative action
and reflect my male gender which your admission program need for me to be
enroll." [Doc. 61-3

45; Doc. 61-16]. In addition, on the same day, plaintiff

submitted an "Appeal Amenment [sic]," requesting that he be considered for
admission as a Non-Traditional Transfer applicant. [Doc. 61-3 ][ 46; Doc. 61-17 (Pl.'s
4/4/06 Appeal Amendment)]. Plaintiff admitted that he made this request because
he was confused about the different admission categories for Non-Traditional
applicants. [Doc. 61-3 Tf 47; Doc. 68 at 86-87]. Plaintiff, however, did not claim that
he was intentionally discriminated against on the basis of his race or gender in either

12

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 15 of 36

of his appeals. [Doc. 61-3

48; Doc. 61-16; Doc. 61-17]. Plaintiff also went to GSU

and spoke with Carson, complaining that GSU's race-neutral policy "wasn't
working in his favor" and that he was not given the "benefit of the doubt." [Doc. 613 If 49; Doc. 68 at 66-69].
Upon receipt of plaintiffs appeal, GSU considered plaintiff for admission as
a Non-Traditional Transfer applicant and determined that he was in fact
academically acceptable for admission under that category. [Doc. 61-3 K 50; Doc. 615 ^[ 26], However, due to plaintiffs prior criminal convictions, he was required to
complete an interview and review process with the Dean of Students. [Doc. 61-3 If
51; Doc. 61-5 ^f 26]. Plaintiff was advised of this decision by letter dated May 5,2006.
[Doc. 61-3 ]f 51; Doc. 61-5 | 26; Doc. 61-12 (5/5/06 correspondence)].
On May 3, 2006, plaintiff executed a release authorizing GSU to obtain
information regarding his criminal background. [Doc. 61-3 f 52; Doc. 61-18 (Pl.'s
Release); Doc. 68 at 42-43]. On the same day, plaintiff also submitted to GSU a
handwritten statement explaining that he had a "few felony" convictions in Florida
on drug and theft-related charges, but he failed to provide any details regarding
those convictions. [Doc. 61-3 ]f 53; Doc. 61-19 (Pl/s 5/5/03 statement); Doc. 68 at 3840]. Thereafter, on May 8,2006, plaintiff provided GSU a print-out from the Florida
Department of Corrections website that listed his criminal convictions and

13

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 16 of 36

incarcerations. [Doc. 61-3 ]f 54; Doc. 61-20 (Fla. D.O.C. print-out); Doc. 68 at 40-42,
96]. This print-out revealed that plaintiff had been convicted of ten theft and drugrelated charges, the most recent having occurred in July of 2000. [Doc. 61-3

55;

Doc. 61-20].
On May 9,2006, plaintiff met with Lanette Brown ("Brown"), GSU's Judicial
Affairs Officer in the Office of the Dean of Students, and they discussed plaintiff's
criminal background and past history of drug use. [Doc. 61-3 ^ 56; Doc. 61-21
(Admission Disciplinary Review); Doc. 68 at 95, 98-101]. During this meeting,
plaintiff advised Brown about his 1986 Georgia conviction for robbery and his theft
convictions in Florida. [Doc. 61-3 57; Doc. 61-21; Doc. 68 at 95]. As a result, Brown
informed plaintiff that he needed to obtain a criminal background check. [Doc. 61-3
Tf 57; Doc. 61-21].

On this same day, plaintiff also submitted an "Appeal

Amendment of Denial Admission" to GSU in which he again complained of the
race-neutral admission policy, claiming that the policy resulted in the denial of his
admission to GSU. [Doc. 61-3 ^[ 58; Doc. 61-22 (Pl/s 5/9/06 Appeal Amendment);
Doc. 68 at 90-91]. Plaintiff, however, had not been denied admission to GSU at the
time. [Doc. 61-3 ^[ 59; Doc. 61-12].
On May 12, 2006, GSU obtained plaintiff's Georgia criminal history report
which showed previously undisclosed convictions for burglary and trespass. [Doc.

14

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 17 of 36

61-3

60; Doc. 61-23 (GSU Police Dep't Criminal History Report)]. Thereafter, on

May 16, 2006, Brown was informed that plaintiffs criminal record outside of
Georgia was only available through the Federal Bureau of Investigations ("FBI").
[Doc. 61-3 If 61; Doc. 61-24 (5/16/06 e-mail to Brown)]. By this time, GSU's May
session classes for the Summer semester had begun, having started on May 15,2006.
[Doc. 61-3 If 62; Doc. 61-5 If 28; Doc. 61-6 at 6],
On May 19,2006, Brown sent a certified letter to plaintiff advising him that as
part of the Dean of Students' review, he would be required to submit two letters of
reference and a National Fingerprint record from the FBI.6 [Doc. 61-3 ]f 63; Doc. 6125 (5/19/06 correspondence from Brown); Doc. 68 at 95-97]. In the letter, Brown
also provided plaintiff the address, telephone number, and e-mail address of the
local FBI office in order to facilitate his compliance with this request. [Doc. 61-3 If
64; Doc. 61-25; Doc. 68 at 97]. Also on May 19, plaintiff met with Brown in person
to discuss the status of the review. [Doc. 61-3 ]f 65; Doc. 68 at 95-97]. At this
meeting, Brown provided plaintiff a copy of the May 19 certified letter. [Doc. 61-3
| 65; Doc. 68 at 95-97].
Because the Dean of Students' review had not been completed, the Office of
Admissions could not process plaintiff's application prior to the start of the Summer

6 Plaintiff signed for the letter on May 31, 2006. [Doc. 61-3 ]f 63; Doc. 61-25].
15

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 18 of 36

semester classes. [Doc. 61-3 ^ 67; Doc. 61-5 f 29]. Consequently, on May 19, 2006,
the Office of Admissions sent plaintiff a form letter advising him that it was unable
to complete the processing of his application at that time and that it was therefore
being withdrawn for the 2006 Summer semester. [Doc. 61-3

67; Doc. 61-5 ]j 29;

Doc. 61-13 (5/19/06 correspondence to plaintiff)]. The Office of Admissions'
withdrawal of plaintiff's application, however, had no effect on the ongoing review
by the Dean of Students which was required to be satisfactorily completed before
plaintiff could be admitted to any term at GSU. [Doc. 61-3 f 68; Doc. 61-5 ]| 30]. In
fact, the Dean of Students has still been unable to complete the process due to
plaintiff's failure to submit the requested letters of reference and a National
Fingerprint record from the FBI as well as his failure to even contact the FBI
regarding the record. [Doc. 61-3 ^ 69; Doc. 61-5 f 31; Doc. 68 at 99-101],
On June 5, 2006, plaintiff submitted an "Appeal of admission" to the Board
again complaining that the "[r]ace-neutral policy did hinder my Africa America
male status to be accepted in [GSU's] admission Program in April 2006." [Doc. 61-3
][ 70; Doc. 61-26 (Pl.'s 6/5/06 Appeal of Admission); Doc. 68 at 103].

GSU

responded to plaintiff's appeal on July 24,2006, and advised the Board that plaintiff
had been admitted to GSU, pending a review by the Dean of Students of plaintiff's
criminal history.

[Doc. 61-3 ^ 71; Doc. 61-27 (7/24/06 correspondence)].

16

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 19 of 36

Specifically, GSU advised the Board that plaintiff's criminal history was more
extensive than plaintiff originally disclosed and that it determined complete
information regarding plaintiff's criminal history, including criminal acts committed
outside of Georgia, was necessary before plaintiff could be cleared for admission.
[Doc. 61-3 Tj 72; Doc. 61-27]. Thus, on August 9, 2006, the Board declined to grant
plaintiff's application for review.

[Doc. 61-3 H 74; Doc. 61-28 (8/9/06

correspondence); Doc. 68 at 141]. From the date of plaintiff's appeal to the filing of
the motion for summary judgment, GSU had still not made a final decision
regarding plaintiff's admission because plaintiff failed to provide the information
required to complete the review process. [Doc. 61-3 f 73; Doc. 61-5 ]} 31; Doc. 61-27].
C.

Plaintiff's Complaint
On January 24, 2007, plaintiff filed the instant complaint under § 1983 and

Title VI, alleging that defendants discriminated against him on the basis of his race
and gender when he was denied admission to GSU. [Doc. 1]. Plaintiff's claims are
based on his belief that (1) the State of Georgia has a history of practicing
segregation, (2) mistakes were made processing his application, (3) GSU knew his
race and gender at the time it processed his application, and (4) the reasons
provided to him for the actions taken with respect to his application are not
believable. [Doc. 61-3 t 79; Doc. 68 at 70-72, 74-75, 80-81,143-44].

17

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 20 of 36

Plaintiff acknowledges that he is unaware of any similarly situated students
outside of his protected class who were treated differently than him. [Doc. 61-3
76; Doc. 68 at 79,151]. In fact, other than parties in reported court decisions, plaintiff
admitted that he is not even aware of any other African-Americans who claim to
have been discriminated against by GSU's race-neutral admissions policy. [Doc. 613 If 77; Doc. 68 at 78-79]. Likewise, plaintiff is unaware of any males who have been
denied admission to GSU. [Doc. 61-3 ^ 78; Doc. 68 at 150-51].
II. SUMMARY TUDGMENT STANDARD
Summary judgment is proper "if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with affidavits, if any, show that
there is no genuine issue as to any material fact and that the moving party is entitled
to judgment as a matter of law." Fed. R. Civ. P. 56(c). Rule 56(c) mandates the entry
of summary judgment, after adequate time for discovery, against a party "who fails
to make a showing sufficient to establish the existence of an element essential to that
party's case, and on which that party will bear the burden of proof at trial." Celotex
Corp. v. Catrett. 477 U.S. 317,322 (1986).
The movant bears the initial burden of asserting the basis of his motion, and
the burden is a light one. Id. at 323. The movant is not required to negate his
opponent's claim. Rather, the movant may discharge this burden merely by

18

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 21 of 36

"'showing'- that is, pointing out to the district court- that there is an absence of
evidence to support the nonmoving party's case." IcT at 325. When this burden is
met, the non-moving party is then required to "go beyond the pleadings and . . .
designate specific facts showing that there is a genuine issue for trial." IcL at 324
(quoting Fed. R. Civ. P. 56(e)) (internal quotations omitted).
While the evidence and factual inferences are to be viewed in the light most
favorable to the non-moving party, see Rollins v. TechSouth, Inc., 833 F.2d 1525,
1528 (11th Cir. 1987); Everett v. Napper, 833 F.2d 1507,1510 (11th Cir. 1987), the non­
moving party "must do more than simply show that there is some metaphysical
doubt as to the material facts." Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). The non-moving party must come forward with specific
facts showing there is a genuine issue for trial. An issue is not genuine if it is created
by evidence that is "merely colorable" or is "not significantly probative." Anderson
v. Liberty Lobby, Inc.,477U.S. 242,249-50 (1986); accord Young v. Gen. Foods Corp..
840 F.2d 825, 828 (11th Cir. 1988). Similarly, substantive law will identify which
facts are material. See Anderson. 477 U.S. at 248. Thus, to survive a motion for
summary judgment, the non-moving party must come forward with specific
evidence of every element essential to its case, so as to create a genuine issue for
trial. See Celotex, 477 U.S. at 323; Rollins, 833 F.2d at 1528.

19

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 22 of 36

III. DISCUSSION
Defendants make three arguments in support of their Motion for Summary
Judgment. [See Doc. 61-2 at 13-14]. First, defendants contend that plaintiffs claims
asserted against the Georgia State University Admissions Office must be dismissed
because it is not an entity capable of being sued. [IcL at 15-16], Second, defendants
argue that plaintiffs § 1983 equal protection claims against the defendants should
be dismissed because they are not "persons" within the meaning of § 1983. [Id. at
16-17]. Finally, defendants assert that plaintiff cannot establish a claim under Title
VI and therefore summary judgment is appropriate. [IcL at 17-24].
A.

Plaintiff's claims against the Georgia State University Admissions Office
Plaintiff names as a defendant in this case the Georgia State University

Admissions Office.

[Docs. 1 & 7]. Defendants argue that the Georgia State

University Admissions Office is not an entity capable of being sued and should
therefore be dismissed as a party in this case. [Doc. 61-2 at 15-16]. For the following
reasons, the Court agrees.
"Tn every suit there must be a legal entity as the real plaintiff and the real
defendant/" Lovelace v. DeKalb Cent. Prob., 144 Fed. App. 793,795 (11th Cir. 2005)
(unpublished) (quoting Ga. Insurers Insolvency Pool v. Elbert County. 368 S.E.2d
500,502 (Ga. 1988)). Federal Rule of Civil Procedure 17(b) provides that capacity of

20

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 23 of 36

suit is determined by the law of the state in which the court is located. See Fed. R.
ClV. P. 17(b); Lawal v. Fowler. 196 Fed. App. 765,768 (11th Cir. 2006) (unpublished);
Lovelace, 144 Fed. App. at 795. Georgia law recognizes natural persons, artificial
persons (corporations), and "'such quasi-artificial persons as the law recognizes as
being capable to sue/" Lawal, 196 Fed. App. at 768 (quoting Ga. Insurers Insolvency
Pool, 368 S.E.2d at 502). As a division of GSU, the Georgia State University
Admissions Office is none of these and thus should be dismissed. See Peirickv.Ind.
Univ.-Purdue Univ. Indianapolis Athletics Dep't. 510 F.3d 681, 694 (7th Cir. 2007)
(noting that Athletics Department was not a legal entity apart from the University
but merely a division of the University and therefore not capable of being sued);
Manns v. Univ. of Ark. Med. Ctr.. No. 4:07CV00758-WRW, 2008 WL 442295, at *1
(E.D. Ark. Feb. 13,2008) (dismissing University of Arkansas Medical Center because
it is a part of the University of Arkansas and not a separate institution or corporate
body capable of suing or being sued); Stanley v. Bayer, A.G., No. 05-541, 2005 WL
1846962, at *2 (W.D. La. July 28,2005) (dismissing division of a corporation because
it was not a separate legal entity capable of being sued); Tarzvnka v. St. Thomas
Univ. Sch. of Law, 310 F. Supp. 2d 1256,1267 n.3 (S.D. Fla. 2004) (noting the St.
Thomas law school is not a separate legal entity capable of being sued but a division

21

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 24 of 36

of the University).7 Accordingly, the undersigned RECOMMENDS that summary
judgment be GRANTED as to the Georgia State University Admissions Office and
that it be DISMISSED as a defendant in this case. The Court addresses the
remaining claims as against the Board only.
B.

Plaintiff's § 1983 claim against the Board
Plaintiff attempts to advance an equal protection claim against the Board

through the vehicle of 42 U.S.C. § 1983. [Doc. 1]. Section 1983 provides that "[e]very
person" who, acting under color of state law, violates another's federally protected
rights "shall be liable to the party injured." See 42 U.S.C. § 1983. Defendants argue
that plaintiff's equal protection claim is due to be dismissed because the Board is not
a "person" within the meaning of § 1983. [Doc. 61-2 at 16-17]. For the following
reasons, the Court agrees with the defendants.
"' [A] state is not a person within the meaning of § 1983.'" Gunn v. Tarriel, No.
CV 306-039, 2007 WL 2317384, at *5 n.5 (S.D. Ga. Aug. 10, 2007) /quoting Will v.
Mich. Dep't of State Police. 491 U.S. 58,64 (1989)) (alteration in original). In Will, the
Supreme Court held that entities with Eleventh Amendment immunity, including
states and state agencies, are not "persons" subject to liability under § 1983. 491 U.S.

7 Plaintiff asserts no argument to the contrary other than his conclusory
statement that GSU is an entity capable of being sued. [See Doc. 63 at 20; Doc. 69 at
21].
22

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 25 of 36

at 58, 64; see also Howlett v. Rose, 496 U.S. 356 (1990) (Will "established that the
State and arms of the State ... are not subject to suit under § 1983 in either federal
court or state court.").

"Under Eleventh Amendment analysis, courts have

consistently deemed the Board of Regents an arm of the state of Georgia." See
Marzec v. Toulson. Civil Action No. CV 103-185, 2007 WL 1035136, at *3 (S.D. Ga.
Mar. 30,2007) (collecting cases). See also Harden v. Adams. 760 F.2d 1158,1163-64
(11th Cir. 1985) (finding state universities are agencies or instrumentalities of the
state); Fouche v. lekvll Island-State Park Auth., 713 F.2d 1518,1522 (11th Cir. 1983)
(discussing cases finding the Board of Regents a part of the state of Georgia);
Fedorov v. Bd. of Regents for the Univ. of Ga., 194 F. Supp. 2d 1378,1385 (S.D. Ga.
2002) ("The Board of Regents is an agency of the State of Georgia."). Thus, the Board
is not a "person" under § 1983; and, therefore, cannot be sued for money damages.
See Carr v. Bd. of Regents of the Univ. Svs. of Ga.. 249 Fed. App. 146,148 (11th Cir.
2007) (unpublished) (affirming summary judgment on plaintiffs § 1983 claim for
money damages because the Board, as a state entity, was not a "person" under the

8 Plaintiff failed to provide any substantive response to defendants' argument
but instead seeks to add additional parties and a new claim under 42 U.S.C. § 1981.
[See Doc. 63 at 20, 22; Doc. 69 at 21-26]. As noted, plaintiff's attempt to add claims
and parties at this stage of the litigation is untimely and not in compliance with this
Court's scheduling order, [Doc. 24], or Federal Rule of Civil Procedure 15(a).
Hyland 2007 WL 2445972, at *3 n.l.
23

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 26 of 36

statute).9 Accordingly, the undersigned hereby RECOMMENDS that defendants'
summary judgment motion be GRANTED as to plaintiff's § 1983 claim against the
Board.10
C.

Plaintiff's Title VI claims against the Board
a.

Intentional Discrimination

As previously stated, plaintiff alleges discrimination on the basis of his race
and gender in violation of Title VI when GSU allegedly denied him admission for
the 2006 Summer semester. Title VI provides that "[n]o person in the United States
shall, on the ground of race, color, or national origin, be excluded from participation

9 Generally, the Eleventh Amendment bars plaintiffs from bringing any cause
of action against either a state or state officials in their official capacities. Williams
v. Bd. of Regents of the Univ. of Ga., 477 F.3d 1282, 1301 (11th Cir. 2007). As
previously stated, the Board is a state entity for Eleventh Amendment purposes. Id.
Thus, no cause of action will lie against the Board unless Congress explicitly
abrogated state immunity in the statute creating the cause of action or the Board
waived its immunity. IcL No waiver has been effected for claims under 42 U.S.C.
§ 1983, see Quern v. Iordan, 440 U.S. 332,345 (1979), and in this case, the Board has
not waived its Eleventh Amendment immunity. Thus, the Eleventh Amendment
also bars plaintiff's § 1983 claim against the Board. Williams, 477 F.3d at 1302. See
also Rooks v. Altamaha Technical Coll., No. CV206-72, 2007 WL 2331830, at * 2-3
(S.D. Ga. Aug. 13, 2007); Gunn. 2007 WL 2317384, at *4-5.
10 Were the Georgia State University Admissions Office a legal entity capable
of being sued, plaintiff's § 1983 claim asserted against it would likewise be
dismissed because it also would be considered an arm of the state of Georgia and
therefore not a "person" within the meaning of § 1983.
24

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 27 of 36

in, be denied the benefits of, or be subjected to discrimination under any program
or activity receiving Federal financial assistance." 42 U.S.C. § 2000d.n
"To state a claim under § 601 of Title VI, "a plaintiff must establish
discriminatory intent/" Carr. 249 Fed. App. at 148 (quoting Burton v. City of Belle
Glade, 178 F.3d 1175,1202 (11th Cir. 1999)). Additionally," [t]he Supreme Court has
said that 'the reach of Title VTs protection extends no further than the Fourteenth
Amendment/" Id, (quoting United States v. Fordice, 505 U.S. 717, 732 n.7 (1992)).
See also Alexander v. Sandoval, 532 U.S. 275, 280-81 (2001). Therefore, "because
Title VI provides no more protection than the Fourteenth Amendment's Equal
Protection Clause, [the Eleventh Circuit has] said that [its] Title VI analysis
'duplicate^] exactly [its] equal protection analysis/" Carr. 249 Fed. App. at 149
(quoting Elston v. Talladega County Bd. of Educ., 997 F.2d 1394,1405 n.ll (11th Cir.
1993)). See also Tohnson v. Bd. of Regents of the Univ. Svs. of Ga„ 106 F. Supp. 2d
1362,1366 (S.D. Ga. 2000).
The Equal Protection Clause of the Fourteenth Amendment provides that
"[n]o State shall... deny to any person within its jurisdiction the equal protection
of the laws." U.S. CONST, amend. XIV. "The Clause 'directs that all persons
similarly circumstanced shall be treated alike/ [b]ut... '[t]he Constitution does not

11 Defendants do not dispute that GSU receives federal funds.
25

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 28 of 36

require things which are different in fact or opinion to be treated in law as though
they were the same/" Carr. 249 Fed. App. at 149 (quoting Plvler v. Doe, 457 U.S. 202,
216 (1982)) (quotations omitted). Thus, "[i]n order to establish a violation of equal
protection, a plaintiff must demonstrate that the challenged action was motivated
by an intent to discriminate," which "may be established by evidence of such factors
as substantial disparate impact, a history of discriminatory official actions,
procedural and substantive departures from the norms generally followed by the
decision-maker, and discriminatory statements in the legislative or administrative
history of the decision." IcL (citations omitted). In short, to state a Title VI claim,
under the Equal Protection analysis, plaintiff must allege that "through state action,
'similarly situated persons have been treated disparately/... and put forth evidence
that [defendants'] actions were motivated by race."12 Draper v. Reynolds. 369 F.3d
12 Some courts analyze Title VI claims under the Title VII framework of
McDonnell Douglas Corp. v. Green. 411 U.S. 792, 802-04 (1973). See Brewer v. Bd.
of Trustees of the Univ. of Ill.. 479 F.3d 908, 921 (7th Cir. 2007) (finding Title VI
claims are governed by the same McDonnell Douglas burden shifting framework
applied to claims brought under Title VII); Middlebrooks v. Univ. of Md., 166 F.3d
1209, at *4 (4th Cir. 1999) (unpublished) (same); Chance v. Reed. Civil No.
3:06CV00970(AWT), 2008 WL 731981, at *8 (D. Conn. Mar. 19,2008) (same); Gantv.
S. Methodist Univ. Sch. of Law. No. CIVA305CV1455K, 2006 WL 2691301, *2-3 (N.D.
Tex. Sept. 19, 2006) (same); Buhendwa v. Univ. of Colorado at Boulder, No. Civ.
A03CV00485REBOES, 2005 WL 2141581, at *2 (D. Colo. Aug. 22,2005); Bavonv.The
State Univ. of New York at Buffalo. No. 98-CV-0578E(SR), 2004 WL 625133, at *2
(W.D.N.Y. Feb. 6, 2004) (same). However, in light of Eleventh Circuit authority to
the contrary, this Court declines to apply the McDonnell Douglas framework and
finds that it is inapplicable to the Title VI claim presented here. See Carr, 249 Fed.
26

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 29 of 36

1270,1278 n.14 (11th Cir. 2004) (citations omitted). See also Griffin Indus., Inc, v.
Irvin. 496 F.3d 1189,1202-03 (11th Cir. 2007) (comparators must be similarly situated
in all relevant aspects).
In the present case, plaintiff has failed to allege that the Board treated him
differently from a similarly situated person of a different race or gender. In fact,
plaintiff even acknowledged that he is not aware of any other students outside of his
protected class who were treated differently, much less students similarly situated
to him in all relevant aspects, including his academic record and criminal
background. Moreover, plaintiff was unaware of any other African-Americans or
males who claim to have been discriminated against by GSU's race-neutral
admissions policy, have been denied admission to GSU, or have had their appeal
denied. [Doc. 68 at 78-79,150-51],
Plaintiff has failed to show that any of the actions taken in this case were
motivated by a specific discriminatory intent. In this regard, plaintiff proffers the
changing of his status from Non-Traditional to Transfer status on his application,
the failure to accord his application priority, the fact that Admissions knew his race
App. at 148-49; Godbv v. Montgomery County Bd. of Educ.. 996 F. Supp. 1390,1414
n.17 (M.D. Ala. 1998). But even were the McDonnell Douglas framework applied
in this case, the outcome stated herein would remain the same because, assuming
plaintiff could make out a prima facie case, the defendants have adequately set forth
legitimate, non-discriminatory reasons for their actions which plaintiff has failed to
refute.
27

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 30 of 36

and gender from his application, the requirements to obtain two letters of
recommendation and a FBI background check, withdrawal of his application for the
Summer semester, and denial to review his appeal as conclusory evidence of
discriminatory intent. [Doc. 63]. The undisputed facts, however, show defendants
took all actions for legitimate non-discriminatory reasons. [See Doc. 61-3 ^Tf 38-43,
46, 50-51, 55-61, 63, 65, 67-74], While plaintiffs application status was changed,
GSU, immediately upon being notified by plaintiff that he wished to be considered
as a Non-Traditional Transfer applicant, considered plaintiff under that status and
cleared him for admission, pending an interview with the Dean of Students and a
criminal background check. [Doc. 61-5 ^ 26]. Additionally, plaintiffs application
was not accorded priority status because he failed to file it by the February 1,2006,
priority deadline date. [Id.

16; Doc. 61-8]. More important, to date, plaintiff still

has not been denied admission to GSU because GSU has been unable to complete
its review of plaintiffs application due to his failure to provide the letters of
reference and the National Fingerprint record from the FBI. GSU, therefore, has not
even made a final decision with respect to plaintiffs application, and his request for
review was denied by the Board because of this fact. Plaintiff has failed to present
any evidence to the contrary or to show that the actions taken were due to anything
other than his individual circumstances. Carr. 249 Fed. App. at 150. Thus, plaintiff

28

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 31 of 36

has failed to establish a genuine issue of material fact that the Board treated similarly
situated applicants outside of his protected class differently in violation of Title VI
or that the Board intentionally discriminated against him on the basis of his race or
gender. IcL (affirming summary judgment for plaintiffs failure to present a genuine
issue of material fact that the Board treated similarly situated students of different
races differently in violation of Title VI). Thus, summary judgment in favor of the
Board is appropriate.
b.

Race-Neutral Admissions Policy

Plaintiff also contends that GSU's race-neutral admissions policy failed to give
him preferential treatment because of his race and gender and is therefore
unconstitutional and in violation of Title VI. [Doc. 63 at 19; Doc. 69 at 14-15, 20].
Specifically, plaintiff appears to contend that an admissions policy that does not
include racial classifications fails the strict scrutiny test applicable to educational
policies that do include racial classifications. [Doc. 63 at 19; Doc. 69 at 6-7, 24-25].
For the following reasons, plaintiffs claim fails.
"Under Supreme Court jurisprudence, race-based treatment is subject to strict
scrutiny under the Equal Protection clause." United States v. Allen-Brown. 243 F.3d
1293, 1298-99 (11th Cir. 2001).13

Courts "apply strict scrutiny because

13 As stated, the analysis under Title VI is the same as under Equal Protection.
Burton. 178 F.3d at 1202.
29

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 32 of 36

' [classifications of citizens solely on the basis of race are by their very nature odious
to a free people whose institutions are founded upon the doctrine of equality/"
lohnson v. Bd. of Regents of the Univ. of Ga.. 263 F.3d 1234,1243 (11th Cir. 2001)
(quoting Shaw v. Reno. 509 U.S. 630,643 (1993)) (quotations omitted) (alteration in
original). "Both the Supreme Court and [the Eleventh Circuit] have made clear that
racial classifications, whatever the motivation for enacting them, are highly suspect
and rarely withstand constitutional scrutiny." Id "'Racial and ethnic distinctions
of any sort are inherently suspect and thus call for the most exacting judicial
examination.'" Id at 1243-44 (quoting Miller v. Tohnson. 515 U.S. 900, 904 (1995)).
"Under strict scrutiny, a racial classification must be held unlawful unless (1)
the racial classification serves a compelling governmental interest, and (2) it is
narrowly tailored to further that interest." Id at 1244 (emphasis in original). "The
proponent of the classification bears the burden of proving that its consideration of
race is narrowly tailored to serve a compelling governmental interest." Id The
Eleventh Circuit has also held that "when government undertakes affirmative
action, it must present a 'strong basis in evidence' for doing so." Id (citations and
quotations omitted).
Two interests that may qualify as compelling have emerged in the school
context. First, the need to remedy past intentional discrimination against minorities

30

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 33 of 36

is considered a compelling governmental interest. See Parents Involved in Cmtv.
Sch. v. Seattle Sch. Dist. No. 1. — U.S.

127 S. Ct. 2738, 2752-53 (2007).

Establishing student body diversity has been considered by some courts as another
compelling governmental interest that may warrant racial classification under the
Equal Protection Clause. See Johnson, 263 F.3d at 1249 & n.13,1250 (finding UGA's
freshman admissions policy giving preferential treatment to non-white and male
applicants on basis of student diversity violated equal protection after assuming for
purposes of its opinion that creation of a diverse student body is a compelling
interest and noting that it is an open question that depends on circumstances of
case).
Plaintiff apparently contends that both a need to remedy past discrimination
and to establish a diverse student body exist in this case such that GSU's raceneutral policy violates Title VI and the Equal Protection Clause. [Doc. 63 at 3-7,1315,18-21]. However, plaintiff has failed to show how GSU's race-neutral policy in
any way prevents it from remedying past intentional discrimination. In fact, it
appears, based on plaintiff's contention, and in the absence of a constitutionally
legitimate purpose, plaintiff's proposed racial classification would accomplish
nothing but "discrimination for its own sake." Regents of the Univ. of Cal, v. Bakke,
438 U.S. 265, 307 (1978). Further, there is no evidence that GSU has not already

31

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 34 of 36

attained unitary status and therefore has already remedied past discrimination. See
Parents Involved in Cmtv. Sch.. 127 S. Ct. at 2752 (finding that once the school had
achieved unitary status, it had remedied the constitutional wrong that allowed racebased assignments and therefore any continued use of race must be justified on
some other basis). Insofar as plaintiff contends that racial classifications are
necessary to promote a diverse student body, his argument likewise fails. See
Johnson, 263 F.3d at 1253 (" [Rjacial diversity may be one component of a diverse
student body, it is not the only component. If the goal in creating a diverse student
body is to develop a university community where students are exposed to persons
of different cultures, outlooks, and experiences, a white applicant in some
circumstances may make a greater contribution than a non-white applicant." Thus,
"an admissions policy that seeks to create a diverse student body by considering the
race of applicants must do so in a sufficiently flexible way.").14 In short, "[r]ace14 Plaintiff attempts to rely on statistical information regarding demographics
of students admitted to GSU in the 2006 Summer semester to bolster his argument
of discrimination and the need for student diversity. [Doc. 63 at 19; Doc. 66 at 41;
Doc. 69 at 25]. Plaintiffs statistical evidence, however, is problematic at best.
" [Statistics based on groups including persons against whom a plaintiff was not
compared are not appropriate," and, additionally, "a plaintiff relying on statistics
must account for other potential causes of the disparity shown by the statistics."
Weser v. Glen, 190 F. Supp. 2d 384, 402 (E.D.N.Y. 2002) (citations omitted).
Although plaintiffs statistical evidence shows that more white applicants were
admitted than African-Americans and more females than males, [Doc. 66 at 41],
plaintiff has not presented any evidence indicating that this is because GSU has a
custom or policy of discriminating against African-Americans or males. In fact,
32

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 35 of 36

conscious decision-making is fundamentally in conflict with the idea of Equal
Protection, and when a state attempts to allocate valuable benefits (including
admission to public universities) on the basis of race, it is the obligation of the courts
to require a powerful showing before upholding the state's discrimination." Id. at
1263. Based on the evidence presented here, plaintiffs proposed racial and gender
preferences, if implemented by GSU, would be unable to withstand strict scrutiny.
Finally, even if GSU had considered plaintiff's race and gender as requested
by plaintiff, plaintiff fails to show how this consideration in any way would have
impacted or changed GSU's actions taken with respect to his application for
admission. The undisputed facts show that GSU has not denied plaintiff admission
but is waiting on the requested information from plaintiff in order to completely
process his application. Therefore, plaintiff's arguments are without merit and the

plaintiff has not presented any evidence of the total number of applicants, the race
and gender of all applicants, and the breakdown of race and gender for each
unsuccessful applicant. See Stout v. Potter, 276 F.3d 1118,1123 (9th Cir. 2002) (the
appropriate population for statistical analysis is the applicant pool as compared to
the composition of the successful applicants); Brown v. Am. Honda Motor Co.. 939
F.2d 946, 952 (11th Cir. 1991) ("To say that very few blacks have been selected by
[the defendant] does not say a great deal about [the defendant's] practices unless we
know how many blacks have applied and failed and compare that to the success rate
of equally qualified white applicants."); Miles v. M.N.C. Corp., 750 F.2d 867, 872
(11th Cir. 1985) (appropriate in demonstrating intentional discrimination to consider
pool of qualified applicants with those actually successful). Therefore, plaintiff's
statistical information is not probative evidence of discrimination.
33

Case l:07-cv-00212-BBM Document 74 Filed 06/16/08 Page 36 of 36

undersigned hereby RECOMMENDS that defendants' summary judgment motion
as to plaintiffs Title VI claims be GRANTED.
IV. CONCLUSION
For all of the foregoing reasons, the undersigned hereby GRANTS in part and
DENIES in part defendants' Motion to Strike, [Doc. 65],15 and RECOMMENDS that
defendants' Motion for Summary Judgment, [Doc. 61], be GRANTED.
The Clerk is DIRECTED to terminate the reference to the undersigned.
IT IS SO ORDERED, RECOMMENDED, AND DIRECTED, this 16th day of
June, 2008.

RUSSELL G. VINEYARE^
UNITED STATES MAGISTRATE JUDGE

15 As previously noted, the Clerk is therefore DIRECTED to terminate any
submission of plaintiff's summary judgment motions, [Docs. 63 & 69], to the
undersigned.
34

